WAIVER

Supreme Court, U.S.
FILED

OCT 0 2 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 19-380
Alfred Lam, Paula Leiato, et al.
(Petitioner)

v. City and County of San Francisco, et al.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[1] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

EJ I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature /s/ Boris Reznikov
Date- October 2, 2019
(Type or print) Name Boris Reznikov
0 Mr. 0 Ms. 0 Mrs. 0 Miss
Firm Office of San Francisco City Attorney Dennis J. Herrera
Address 1390 Market Street, 5th Floor
City & State San Francisco, CA
Phone (415) 554-4296

Zip 94102
Email boris.reznikov@sfcityatty.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Alfred Lam; Paula Leiato

